                                                                              Office ofInspector General

                                                                              U.S. Department of Homeland Security
                                                                              Washington, DC 20528




                                                                              Homeland
                                                                              Security
                                            SEP 022011
MEMORANDUM FOR.                         Tony Russell
                                        Regional Administrator, Region VI
                                        Federal Emergenc Management Agency

FROM:                                   Matt Jadacki
                                        Assistant Inspector Gen al
                                        Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded to
                                        Calcasieu Parish School Board, Lake Charles, Louisiana
                                        FEMA Disaster Number 1607-DR-LA
                                        Audit Report DD-II-20

We audited public assistance grant funds awarded to the Calcasieu Parish School Board (CPSB)
in Lake Charles, Louisiana (Public Assistance Identification Number 019-UZAJ3-00). Our audit
objective was to determine whether CPSB accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds according to federal regulations and FEMA
guidelines.

CPSB received an award of$14.7 million from the Governor's Office of Homeland Security and
Emergency Preparedness (GOHSEP), a FEMA grantee, for damages resulting from Hurricane
Rita, which occurred on September 24,2005. The award provided 100% funding for 59 large
and 351 small projects. 1 The audit covered the period September 24, 2005, through
August 20, 2010, the cutoff date of our audit, and included 62 projects totaling $8.9 million, or
61 % of the total award. 2 We also performed a limited review of six additional projects totaling
$480,977 to determine the amount of unused funds that should be deobligated and whether
CPSB followed federal procurement standards. As of the cutoff date of our audit, CPSB had
completed work under all projects and claimed $19.8 million in expenses.




I   Federal regulations in effect at the time of the disaster set the large project threshold at $55,500.
2   We audited the gross amount of$15 million awarded before reductions for insurance.
Table 1 shows the gross and net award and claim amounts before and after insurance reductions
for all projects and for our audit scope.

                     Table 1. Gross and Net Award and Claim Amounts
                    Gross Award Gross Claim     Insurance    Net Award Net Claim
                      Amount        Amount     Reductions     Amount     Amount
   All Projects    $25,942,364    $19,808,141 ($10,750,000) $14,715,443 $9,058,141
   Audit Scope     $15,036,986    $12,566,380 ($6,042,624) $8,994,362 $6,705,006

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We interviewed FEMA, GOHSEP, and CPSB officials; reviewed judgmentally selected samples
of project costs (generally based on dollar value); and performed other procedures considered
necessary to accomplish our objective. We did not assess the adequacy of CPSB’s internal
controls applicable to grant activities because it was not necessary to accomplish our audit
objective. We did, however, gain an understanding of the CPSB’s methods of accounting for
disaster-related costs and its procurement policies and procedures.


                                     RESULTS OF AUDIT

CPSB accounted for FEMA grant funds on a project-by-project basis according to federal
regulations. However, CPSB did not follow federal procurement standards in awarding
$11,098,915 of disaster-related contracts, and its claim included ineligible and unsupported
costs. As a result, we question the following $3,668,790 in ineligible and unsupported costs:

       Finding A: $2,940,177 of ineligible contract costs billed under noncompetitive and
       improper contracts (net of insurance proceeds and net of $39,475 also questioned in other
       findings—see Exhibits A, Schedule of Questioned Costs, and B, Costs Questioned Under
       Multiple Criteria);
       Findings B and D–G: $160,926 of ineligible contract costs that were either unauthorized,
       duplicated, not reduced by applicable credits, or not valid;
       Finding C: $22,610 of unsupported contract costs; and
 

       Finding H: $545,077 of ineligible costs to be reduced by insurance proceeds.
 


In addition, FEMA should complete its insurance review to allocate insurance proceeds to
applicable projects (finding H) and deobligate $747,106 and put those funds to better use
(finding I).




                                                2

Finding A: Contracting

CPSB did not always comply with federal procurement standards in awarding $11.1 million of
disaster-related work.3 Federal regulations at 44 CFR 13.36, in part, require subgrantees to
comply with the following procurement standards:

           Perform procurement transactions in a manner providing full and open competition
           except under certain circumstances. One allowable circumstance is when there is a
           public exigency or emergency for the requirement that will not permit a delay resulting
           from competitive solicitation. (13.36 c)(1) and 13:36(d)(4)(i)(B))
 

           Not use the cost-plus-percentage-of-cost method of contracting. (13.36(f)(4))
 

           Prepare a cost or price analysis in connection with every procurement action, including 

           contract modifications. (13.36(f)(1))
           Include specific provisions in subgrantees’ contracts. (13.36(i))
 

           Negotiate profit as a separate element of the price for each contract in which there is no 

           price competition and in all cases where a cost analysis is performed. (13.36(f)(2))
           Obtain price or rate quotations from an adequate number of qualified sources if the
           subgrantee uses small purchase procedures. (13.36(d)(1))

                                Table 2. Contract Costs Awarded and Questioned
                     Number of     Amounts       Amounts                      Violations of Procurement Standards
 Contract Type       Contracts     Awarded      Questioned                         Under 44 CFR Subsection:
                                                               13.36(c )(1)   13.36(f)(1)    13.36(i)    13.36(f)(2)   13.36(d)(1)

                                                                Full and       Cost or                     Profit      Price Quote
                                                                 Open           Price        Federal     Negotiated     for Small
                                                               Competition     Analysis     Provisions   Separately     Purchases

Cost Plus %                  4    $ 4,679,993   $ 4,679,993         x                           x            x
Small Purchases
– Exigent                    6        130,499             0                       x             x            x             x
         Subtotal           10    $ 4,810,492   $ 4,679,993
All Other
Contracts                   33    $ 6,288,423             0                       x             x            x
      Gross Totals          43    $11,098,915   $ 4,679,993
         Insurance
       Deductions                               $(1,700,341)
    Total Amount
      Questioned            4                   $ 2,979,652


As shown in table 2, CPSB awarded 10 noncompetitive contracts comprising 4 cost-plus-
percentage-of-cost contracts ($4,679,993) and 6 small purchases ($130,499). Additionally,
CPSB did not (1) always perform the required cost or price analysis, (2) negotiate profit as a
separate element of cost, or (3) include required provisions in any of its contracts. We
questioned the four noncompetitive cost-plus-percentage-of-cost contracts, but did not question
the small purchases because CPSB procured them under exigent circumstances.


3
  The $11.1 million includes all contracts that did not comply with one or more of the federal procurement standards
listed. However, we questioned costs for only four contracts that were not competed and were prohibited cost-plus-
percentage-of-costs contracts ($2,979,652 net of insurance proceeds).


                                                                3
 

Noncompetitive and Prohibited Contracts

CPSB awarded four noncompetitive cost-plus-percentage-of-cost contracts totaling $4,679,993
for water and mold remediation. CPSB awarded the four contracts under exigent circumstances,
which allow an exception to the requirement for competition. However, federal regulations
specifically prohibit cost-plus-percentage-of-cost contracts, which provide disincentives for
contractors to control costs. CPSB officials disagreed with this finding because they said they
monitored all activities and costs closely, properly accounted for the costs, and deemed the costs
reasonable by looking at similar costs charged by like companies in similar circumstances.
GOHSEP officials also disagreed with this finding because they believe that the effect of using
prohibited contract types (in this instance) was mitigated by cost reasonableness.

FEMA’s general practice is to allow contract costs it considers reasonable regardless of
compliance with federal procurement regulations. We do not agree with this practice because
the goals of proper contracting involve more than just cost. Without full and open competition,
FEMA has little assurance that contract costs are reasonable. Full and open competition
provides an environment for obtaining reasonable pricing from the most qualified contractors
and helps discourage favoritism, collusion, fraud, waste, and abuse.

In addition, CPSB awarded six small purchases, totaling $130,499, without obtaining any quotes
from qualified sources. According to 44 CFR 13.36, if small purchase procedures are used, price
or rate quotations shall be obtained from an adequate number of qualified sources (generally
three or more). However, because CPSB awarded the contracts under exigent circumstances, we
do not question these costs.

Cost or Price Analysis

CPSB did not perform a cost or price analysis on the majority of contracts we reviewed. Not
performing a cost or price analysis increases the likelihood of unreasonably high or low prices,
contractor misinterpretations, and errors in pricing relative to the scope of work. CPSB officials
disagreed with this finding, stating that they attempted to provide a cost analysis in many
instances and provided bids from an adequate number of contractors on most of the projects.

Contract Provisions and Negotiation of Profits

CPSB did not include required federal contract provisions in any of its contracts. These
provisions document the rights and responsibilities of the parties and minimize the risk of
misinterpretations and disputes. CPSB also did not negotiate profit as a separate element of cost
for any of the contracts awarded. CPSB officials agreed with this finding.

Because CPSB awarded four prohibited cost-plus-percentage-of-cost contracts, we question
$2,979,652 as ineligible contract costs ($4,679,993 less $1,700,341 insurance proceeds applied).
This amount includes $39,475 that we also questioned in other findings ($16,865 under findings
E and G and $22,610 under finding C). Therefore, the net amount of total questioned costs for
this finding is $2,940,177 ($2,979,652 minus $39,475) (see Exhibits A, Schedule of Questioned
Costs, and B, Costs Questioned Under Multiple Criteria).




                                                 4

Finding B: Project Scope of Work

CPSB’s claim included $114,983 for costs not in the project scope of work. CPSB claimed the
following costs:

           Roof repairs for a concession stand totaling $2,190 under Project 2327,

           Building demolition and flooring installation totaling $62,820 under Project 2279,

           Change orders for replacement of a school auditorium roof totaling $17,292 under Project 

           4084,
 

           Architectural services for roof repairs totaling $6,936 under Project 2609,
 

           Roof repairs to the boys’ and girls’ gymnasiums totaling $19,045 under Project 2265, and
 

           Repairs to the gymnasium floor totaling $6,700 under Project 3204.
 


According to the Public Assistance Policy Digest (FEMA 321, p. 75), funds for costs that are
outside the scope of work approved by FEMA are not eligible. GOHSEP also reviewed these
projects and reduced CPSB’s claim by $108,047 for some of these ineligible costs (see
Exhibit C, Costs Disallowed by GOHSEP). We reviewed these reductions and agreed with
GOHSEP’s actions. Therefore, we question $114,983 of costs not in the project scope of work.
GOHSEP officials said that they will work with CPSB officials to determine whether the costs
are for eligible work that should be included in new versions of the projects.

Finding C: Documentation of Costs

CPSB’s claim included $22,610 of unsupported contract costs. The invoices for these costs did
not include support for labor hours worked or material purchases. Cost principles at 2 CFR 225,
Cost Principles for State, Local, and Indian Tribal Governments, appendix A, section C.1.j, state
that a cost must be adequately documented to be allowable under federal awards.4 Therefore, we
question $22,610 in unsupported costs. CPSB officials said that they will request additional
documentation from the contractors to support the questioned costs. We will consider any
additional support CPSB provides during audit follow-up.

Finding D: Duplicate Costs

CPSB’s claim included $21,137 for duplicate invoices. CPSB submitted three invoices under
Projects 2619 and 2971 twice. The invoices were for repainting the auditorium ceiling
($17,995), ceiling tile replacement ($2,092), and advertising signs ($1,050). GOHSEP also
reviewed these projects and reduced CPSB’s claim by $21,137 for these ineligible costs. We
reviewed these reductions and agreed with GOHSEP’s actions (see Exhibit C, Costs Disallowed
by GOHSEP). Therefore, we question $21,137 of duplicate costs.

Finding E: Costs Credited

CPSB’s claim included $15,154 of costs that its contractor credited back to CPSB. CPSB
received two credits for mold and remediation work under Projects 3223 ($8,885) and 3375
($6,269) that it did not deduct from its claim. According to 2 CFR 225, Cost Principles for

4
    OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR, part 225, on August 31, 2005.


                                                           5
 

State, Local, and Indian Tribal Governments, appendix A, sections C.1.i and C.4.a, costs claimed
under a federal award must be net of applicable credits. Such credits, whether accruing or
received by the government unit, shall be credited to the federal award as either a cost reduction
or a cash refund, as appropriate. Therefore, we question $15,154 of ineligible costs not reduced
by applicable credits. CPSB officials agreed with this finding.

Finding F: Items Not Purchased

CPSB’s claim included $7,941 for items not purchased. CPSB claimed costs for two invoices
under Project 2971 for advertising signs that it did not purchase. GOHSEP also reviewed this
project and reduced CPSB’s claim for this ineligible cost. We reviewed this reduction and
agreed with GOHSEP’s action (see Exhibit C, Costs Disallowed by GOHSEP). Therefore, we
question $7,941 of ineligible costs for items not purchased.

Finding G: Math Error

CPSB’s claim included a $1,711 math error on a contractor invoice under Project 1765.
Therefore, we question $1,711 of ineligible contract costs.

Finding H: Insurance

CPSB received $11,295,077 in insurance proceeds for property and computer damages.
However, FEMA allocated only $10,750,000 of the proceeds to CPSB’s projects. According to
44 CFR 206.253(a), eligible costs must be reduced by the actual amount of insurance proceeds
relating to the eligible costs. Therefore, FEMA should complete its insurance review, allocate
the remaining $545,077 in applicable insurance proceeds to CPSB’s projects, and disallow those
costs as ineligible (see Exhibit A, Schedule of Questioned Costs). CPSB officials agreed with
this finding.

Finding I: Funds Put to Better Use

CPSB completed work and claimed $2,655,662 for 16 projects, which was $135,411 less than
the total amount FEMA estimated and approved for the 16 projects. CPSB completed the
majority of these projects 4 years ago. GOHSEP and CPSB officials agreed that the $135,411
were unused funds.

In addition, FEMA overobligated Project 3276 by $310,095 and Project 2279 by $301,600
because of incorrect adjustments for insurance, hazard mitigation, and cost estimates. Therefore,
FEMA should deobligate $747,106 ($135,411 plus $310,095 plus $301,600) and put those
federal funds to better use. FEMA officials agreed and stated that they will deobligate the funds
for Project 3276 and will discuss with CPSB the possibility of additional funding for alternate
work for Project 2279. CPSB and GOHSEP officials agreed that there were errors on Project
3276 and the funds should be deobligated, and stated that they will discuss the alternate work
with FEMA.




                                                6
 

Other Matters

GOHSEP overpaid CPSB $2.3 million in funding on 15 projects. The overpayment occurred
because FEMA adjusted for actual insurance proceeds after GOHSEP paid CPSB. CPSB had set
the funds aside for project closeout. GOHSEP officials said that they plan to bill CPSB to
recover the funds. Because the overpayments did not reduce authorized FEMA funding, we did
not question any costs. However, GOHSEP should collect the overpayment to fund other
projects. CPSB officials agreed with this observation.


                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

      Recommendation #1: Disallow $2,940,177 ($2,940,177 federal share) of improperly
      contracted costs that were ineligible (finding A).

      Recommendation #2: Disallow $114,983 ($114,983 federal share) of ineligible contract
      costs that were outside the authorized scope of work (finding B).

      Recommendation #3: Disallow $22,610 ($22,610 federal share) of unsupported contract
      costs (finding C).

      Recommendation #4: Disallow $21,137 ($21,137 federal share) of ineligible duplicate
      contract costs (finding D).

      Recommendation #5: Disallow $15,154 ($15,154 federal share) of contract costs that
      are ineligible because CPSB received credit for them (finding E).

      Recommendation #6: Disallow $7,941 ($7,941 federal share) of ineligible contract
      costs for items not purchased (finding F).

      Recommendation #7: Disallow $1,711 ($1,711 federal share) of ineligible contract
      costs caused by a math error (finding G).

      Recommendation #8: Allocate $545,077 ($545,077 federal share) of insurance proceeds
      to CPSB’s projects and disallow those amounts from the projects as ineligible (finding H).

      Recommendation #9: Deobligate $747,016 ($747,016 federal share) and put those
      federal funds to better use (finding I).




                                              7
 

            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP
 


We discussed the results of our audit with CPSB officials during our audit and included their
comments in this report, as appropriate. We also provided written summaries of our findings and
recommendations in advance to FEMA, GOHSEP, and CPSB officials and discussed them at
exit conferences held with FEMA on July 7, 2011, and with GOHSEP and CPSB officials on
July 14, 2011. FEMA officials stated that they would not agree to disallow the value of any
improperly procured contracts identified in Finding A if the costs were reasonable, but generally
agreed with the other findings and recommendations. GOHSEP and CPSB officials generally
agreed with recommendations 4 through 9, disagreed with recommendation 1 based on
reasonableness of cost, and disagreed with recommendations 2 and 3 because of additional
support that CPSB officials said that they will provide.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. To promote transparency, this report will be posted
to our website. Significant contributors to this report were Tonda Hadley, Paige Hamrick, James
Mitchell, and Chiquita Washington.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley, at (214) 436-5200

cc:	   Administrator, FEMA
       Audit Liaison, FEMA Louisiana Recovery Office
       Audit Liaison, FEMA Region VI
       Audit Liaison, FEMA (Job Code G-11-009)
       Audit Liaison, DHS




                                                8
 

                                                                                      EXHIBIT A
                              Schedule of Questioned Costs
                 Calcasieu Parish School Board, Lake Charles, Louisiana
                         FEMA Disaster Number 1607-DR-LA


                                                                                            Net
Project   Net Award    Net Claim    Finding     Findings    Finding     Total Costs    Deobligation
Number     Amount       Amount         A        B & D–G         C       Questioned       Amount
 1960     $1,913,372   $ 486,864    $       0    $      0    $      0    $        0      $        0
 1570        355,860      380,709           0           0           0             0        (24,849 )
 2327        351,903      351,969           0       2,190           0         2,190             (67 )
 3470        310,775      310,775     310,775           0           0       310,775                0
 3276        310,095            0           0           0           0             0         310,095
 2279        301,600            0           0      62,820           0        62,820         301,600
 1998        289,075      289,075           0           0           0             0                0
 2160        255,375      255,371           0           0           0             0                0
  439        253,208      253,208     253,208           0           0       253,208                0
  345        250,000      250,000     250,000           0           0       250,000                0
  438        250,000      250,000     250,000           0           0       250,000                0
 2619        244,580      208,517           0      20,087           0        20,087          36,063
 4084        226,893      101,924           0      17,292           0        17,292                0
 2850        215,858      205,167           0           0           0             0                0
 3048        210,025      212,393           0           0           0             0          (2,368)
 2609        203,286      125,697           0       6,936           0         6,936           77,589
 2208        169,117      169,117     169,117           0           0       169,117                0
 3223        166,087      166,087     166,087       8,885           0       174,972                0
  359        153,312      153,312     153,743           0           0       153,743                0
 2538        141,677      141,677     127,422           0           0       127,422                0
  346        139,099      139,099     139,099           0           0       139,099                0
 2265        130,845      119,065           0      19,045           0        19,045           11,780
  358        126,109      126,109     126,109           0           0       126,109                0
 3443        125,143      125,244           0           0           0             0            (101)
 2553        121,652      121,652     116,133           0           0       116,133                0
  313        110,691      105,330     105,330           0           0       105,330            5,361
 2971        106,838      108,616           0       8,991           0         8,991          (1,778)
 1765        100,521      100,521     100,521       1,711           0       102,232                0
 3375         78,075       75,459      75,029       6,269           0        81,298            2,616
 1961         68,800       68,800      68,800           0           0       68,800                 0
  351         71,967       71,967      71,967           0           0       71,967                 0
  428         63,154       63,154      63,154           0           0       63,154                 0
 2261         61,897       61,897      61,897           0           0       61,897                 0
  352         60,514       60,514      60,514           0      22,610       83,124                 0
 2231         59,717       59,717      59,717           0           0       59,717                 0
  456         56,990       56,990           0           0           0            0                 0




                                            9
 

                                                                                                     EXHIBIT A
                                    Schedule of Questioned Costs
 

                       Calcasieu Parish School Board, Lake Charles, Louisiana 

                                FEMA Disaster Number 1607-DR-LA
 

                                            (Continued)
 


                                                                                                          Net
 Project      Net Award       Net Claim        Finding       Findings       Finding    Total Costs    Deobligation
Number         Amount          Amount             A          B & D–G           C       Questioned       Amount
  3814            53,570          53,570              0              0             0             0               0
  4261            51,993          51,993         51,993              0             0        51,993               0
  2301            51,837          51,837              0              0             0             0               0
  3204            51,727          40,485              0             6,700          0         6,700               0
  1952            50,823          50,823              0                 0          0             0               0
  2888            48,040          48,040              0                 0          0             0               0
  2802            47,535          47,535              0                 0          0             0               0
  2516            45,278          45,278              0                 0          0             0               0
   338            43,117          43,117         43,117                 0          0        43,117               0
  3418            41,489          41,489         41,489                 0          0        41,489               0
  2786            39,984          39,984              0                 0          0             0               0
  3376            39,312          39,312         33,958                 0          0        33,958               0
  1064            39,087          39,087              0                 0          0             0               0
  2932            38,943          38,943              0                 0          0             0               0
  3031            38,264          38,264              0                 0          0             0               0
   450            36,725          36,725              0                 0          0             0               0
   317            33,951          33,951         33,951                 0          0        33,951               0
  2523            31,423          31,423              0                 0          0             0               0
  2486            30,825          30,825              0                 0          0             0               0
  3378            29,089          29,089         29,089                 0          0        29,089               0
  2328            24,445          24,445              0                 0          0             0               0
  3052            20,584          20,584         17,433                 0          0        17,433               0
  3207            19,796          19,796              0                 0          0             0               0
  2719            14,254          14,254              0                 0          0             0               0
  2274            12,223          12,223              0                 0          0             0               0
  2636             5,938           5,938              0                 0          0             0               0
Subtotals*    $8,994,362      $6,705,006     $2,979,652          $160,926    $22,610    $3,163,188       $715,941


* These subtotals are the totals for the projects we included in our initial audit scope.




                                                         10
 

                                                                                             EXHIBIT A
                                 Schedule of Questioned Costs
 

                    Calcasieu Parish School Board, Lake Charles, Louisiana 

                             FEMA Disaster Number 1607-DR-LA
 

                                         (Continued)
 



Projects Added for Limited Review
                                                                                Total        Net
 Project     Net Award        Net Claim     Finding       Findings    Finding   Costs    Deobligation
Number        Amount           Amount          A          B & D–G        C    Questioned   Amount
  2807           124,986         124,903              0           0         0          0           83
  2157            78,424          61,211              0           0         0          0       17,213
  2884            77,720          70,142              0           0         0          0        7,578
  2627            72,363          71,295              0           0         0          0        1,068
  2694            70,888          70,850              0           0         0          0           38
  3043         ___56,597      ___51,412               0           0         0          0    ___5,185
Subtotals      $9,475,340     $7,154,819   $2,979,652     $160,926    $22,610   $3,163,188       $747,106

Insurance to be Allocated (finding H)                                           $ 545,077

Subtotals      $9,475,340     $7,154,819   $2,979,652     $160,926    $22,610   $3,708,265       $747,106

Less Costs Questioned Twice
  (from exhibit B)                         ($ 39,475)                           ($ 39,475)
Grand
Totals         $9,475,340     $7,154,819   $2,940,177     $160,926    $22,610   $3,668,790       $747,106

Total Questioned Costs Recommended for Disallowance                             $3,668,790

Total Recommended for Deobligation (finding I)                                                   $747,106




                                                  11
 

                                                                                                    EXHIBIT B
                               Costs Questioned Under Multiple Criteria
 

                       Calcasieu Parish School Board, Lake Charles, Louisiana
 

                                 FEMA Disaster Number 1607-DR-LA
 


                                        Costs               Amounts
                                     Questioned in         Questioned
                       Project        Finding A            More than           Net Costs
                       Number        (From Exhibit A)        Once5            Questioned
                        3470              $   310,775        $        0       $    310,775
                         439                  253,208                 0            253,208
                         345                  250,000                 0            250,000
                         438                  250,000                 0            250,000
                        2208                  169,117                 0            169,117
                        3223                  166,087           (8,885)            157,202
                         359                  153,743                 0            153,743
                        2538                  127,422                 0            127,422
                         346                  139,099                 0            139,099
                         358                  126,109                 0            126,109
                        2553                  116,133                 0            116,133
                         313                  105,330                 0            105,330
                        1765                  100,521           (1,711)             98,810
                        3375                   75,029           (6,269)             68,760
                         351                   71,967                 0             71,967
                        1961                   68,800                 0             68,800
                         428                   63,154                 0             63,154
                        2261                   61,897                 0             61,897
                         352                   60,514          (22,610)             37,904
                        2231                   59,717                 0             59,717
                        4261                   51,993                 0             51,993
                         338                   43,117                 0             43,117
                        3418                   41,489                 0             41,489
                        3376                   33,958                 0             33,958
                         317                   33,951                 0             33,951
                        3378                   29,089                 0             29,089
                        3052                   17,433                 0             17,433
                        Totals             $2,979,652        ($39,475)          $2,940,177




5
  The $2,979,652 (net of insurance proceeds) questioned as improper contract costs (finding A) includes $16,865 of
ineligible contract costs (findings E and G) and $22,610 of unsupported contract costs (finding C). Recommendation 1
(finding A) is to disallow $2,940,177 of questioned costs, which is net of the amounts questioned in findings C, E,
and G. Therefore, if FEMA does not disallow the $16,865 of ineligible contract costs (findings E and G) and
$22,610 of unsupported costs (finding C), it should add back these amounts to increase the amount of
recommendation 1 to $2,979,652.


                                                        12

                                                                   EXHIBIT C
               Costs Disallowed by GOHSEP
 

   Calcasieu Parish School Board, Lake Charles, Louisiana
 

            FEMA Disaster Number 1607-DR-LA
 





Project   Disallowed          Reason GOHSEP
Number     Amount                 Disallowed             Finding
 2327       $ 2,190     Costs not in the scope of work      B
 2279          62,820   Costs not in the scope of work      B
 2265          19,045   Costs not in the scope of work      B
 3204           6,700   Costs not in the scope of work      B
 4084          17,292   Costs not in the scope of work      B
 2971           7,941   Items not purchased                 F
 2971           1,050   Duplicate costs                     D
 2619          20,087   Duplicate costs                     D
 Total       $137,125




                              13
 

